MEMORANDUM

DATE:


TO:           David A. Elizalde, Director
 Division             of Acquisition and Cooperative Support

FROM:         Deborah H. Cureton
              Associate Inspector General for Audit

SUBJECT:      NSF OIG Audit Report No. OIG-06-1-017, Audit of Raytheon Polar
              Services Company- New Zealand’s (RPSC-NZ) Accounting System and
              Labor Floor Check Reviews

In response to your request for audit assistan ce we contracted with the Defense Contract
Audit Agen cy (DCAA) to perform a series of audits of the Raytheon Polar Services
Company’s (RPSC) Calendar Year 2000-2004 incurre d cost proposal submissions of costs
claimed under NSF Contract OPP-0000373. As th ese audits are com pleted and issued to
the NSF OIG by DCAA’s Herndon Branch Offi            ce, we provide the results and our
recommendations to the Division of Acqui sition and Cooperative Support (DACS) for
appropriate action. Attached are th e DCAA reports “Raytheon Polar Services – New
Zealand Accounting System Review” dated June 15, 2006; and “R eport on Audit of
Raytheon Polar Services-New Zealand Labor Floor Check” dated April 7, 2006. These
DCAA audit reports address the adequacy of RPSC-NZ’s accounting and labor system
internal controls.

The objectives of the audits were to dete rmine whether RPSC-NZ’s accounting and labor
system internal controls a pplied under the NS F contract are adequate for accum ulating,
segregating and reporting costs in compliance with the NSF contract term s and conditions
and applicable federal laws and regulations.

DCAA performed the audit in a ccordance with Generally Accepted Gov ernment Auditing
Standards.
                                           Background

The United States Antarctic P rogram (USAP) has, since 1971 when NSF assumed full
responsibility for USAP, provided a perm anent presence and overseen U.S. scientific
interests in Antarctica. R PSC, loc ated in Centennial, Colorado, is a unit of Raytheon
Technical Services Company (RTSC) headquart ered in Reston, Virg inia. RPSC is under
contract with NSF to provide science, operations, and maintenance support to sustain year-
round research programs. The c ontract consists of a five-yea r base period and five option
periods for a total of ten years and is valued at $1.1 billion. The charges claim ed against
the contract average                         .

DCAA audited                     in costs claimed for payment by RPSC under Contract No.
OPP-0000373 from January 1, 2000 through Decem ber 31, 2002. 1 Significant questioned
costs of             in the categor ies of Miscellaneous, Miscel laneous-Petty Cash, Travel,
Training, L oad (Aircraf t) Direct Services, a nd Other Direct Costs, were id entified and
were principally related to a New Zealand Petty Cash Fund. The costs were questioned
because RPSC did not produce adequate accounting documentation detailing how the costs
were allow able under the Federal Acquisitio n Regulatio ns (FAR) or how the costs
benefited NSF’s contract. Also, DCAA subseque ntly determined that RPSC established a
subsidiary com pany in Christchurch, New Zealand for all NSF USAP contract work
performed in Christchurch. The subsidiary has its own Accounting System , Purchasing
System, Labor Recordk eeping System , as well as a Board of Directors to oversee all of
RPSC’s activities in New Zealand. DCAA pe rformed a review of RPSC-NZ’s internal
control policies and procedures for accounti ng, docum enting, and allocating costs to the
NSF contract in place as of November 10, 2005. The review also makes recommendations
to RPSC that will ensu re that NSF is billed only for allowable and docum ented costs for
future contract performance.


                                      Summary of Results

DCAA issued reports o n “Raytheo n Polar Services –New Zealand A ccounting S ystem
Review” and “Report on Audit of Raytheon         Polar Services-New Zealand Labor Floor
Check” dated June 15, 2006 and April 7, 2006,        respectively (see A ttachments). The
auditors found that the internal control deficiencies that led to the                     in
questioned costs from January 1, 2000 through December 31, 2002 appear to have resulted
from prior improperly trained accounting staff that did not retain the documentation for the
costs incurred. Since that tim e, new accountin g staff and record re tention policies have
been put in place to add ress these deficienci es. However, the auditors found additional
significant weaknesses in the internal controls governing RPSC-NZ’s accounting and labor
systems that could adversely affect RPSC-NZ’ s ability to record, process, summarize, and
report costs to NSF. The deficien cies require that NSF direct RPSC to take prom pt action
1
 RPSC’s failure to adequately support New Zealand claimed costs during FYs 2000-2002 was reported in
NSF OIG Report OIG-5-1-005, Audit of Raytheon Polar Services Company’s Costs Claimed FY 2000-2002
dated March 31, 2005.



                                                 2
to address the reliability of its accounting, payroll, and tim ekeeping system s in New
Zealand in order to comply with Federal and NSF contract requirements.

A brief summ ary of the deficiencies in R PSC-NZ’s labor and account ing system internal
controls follows:

1. Charging Unallowable Contract Co sts as Allowable Contract Co sts RPSC-NZ is
charging NSF for costs that are considered expressly unallowable under FAR 31.205 s uch
as gifts, en tertainment, and alco hol. RPSC is in correctly class ifying these co sts as
allowable “other material costs,” instead of charging them to an unallowable cost account.
According to RPSC-NZ, these items are for resale in Antarctic station facilities such as the
store or bar, and are also being provided as bingo prizes. RPSC-NZ also stated th at the
revenue generated from these re sale activities is properly credited to NS F on its qua rterly
expenditure reports. Accordingly, RPSC-NZ’s only purpose for charging these costs to the
NSF contra ct was for RPSC-NZ t o rec eive a f ee for supplying the alcoholic beverages.
However, under FAR 31.205, expressly unallowabl         e costs m ust be segregated from
otherwise billable contract costs.

2. Incorrectly Recording Labor Costs as Other Direct Costs


                                                   . RPSC states that this reclassification
is necessary because th e accounting system at the RPSC headquarters of fice is unab le to
record the New Zealand costs as lab or costs. RPSC’s inability to reco rd the New Zealand
labor costs correctly may result in understating total direct labor costs incurred on the
RPSC contract and reported to NSF. RPSC sh ould strengthen its internal control structure
to ensure that the USAP contract labor costs are correctly reported to NSF. 2

3. Im proper Segregation of Duties RPSC does not have ad equate segregation of the
payroll accountant’s duties in the payroll p rocess to prevent or identify billing errors. The
accountant should not have sole resp onsibility or the ability to perform multip le functions
in the payroll system . These func tions in clude entering initial payroll data and hours
worked; changing salary rates, wages and hours worked; posting payroll to the general
ledger; and requesting electronic disbursem ents for payroll to e mployee’s bank accounts.
The lack of segregation of duties in this ar ea can lead to improper changes to em ployee
salaries or wage rates, developm ent of ghost em ployees, and other potential improper
activity.

4. Em ployee Timecards Not Signed Em ployee timecards are not consis tently signed by
the em ployee, approved by the supervisor, an d certified by m anagement. There is no
policy or procedure in place which has supervisors and m anagement accountable f or the
review, app roval, and certifi cation of tim ecards. The certif ication and approval of tim e

2
 RPSC’s failure to record New Zealand labor correctly during FYs 2000-2002 was reported in NSF OIG
Report OIG-5-1-005, Audit of Raytheon Polar Services Company’s Costs Claimed FY 2000-2002 dated
March 31, 2005.



                                                  3
cards is ess ential to en sure accu rate reco rding of ti me actually worked by RPSC-NZ
employees and costs charged to the NSF contract.

5. Employees Not In Possession of Ti mesheets; Tim esheets not Recorded Daily; and
Timesheets Not Com pleted in Ink There were instances noted where em ployees were
printing out timesheet templates for an entire department at the end of the pay period with
default labor hours recorded for the e mployees to sign. There were other instances noted
where the tim ecard was not com pleted on a d aily basis and /or com pleted in pencil. By
allowing so meone other than the employee to com plete the tim ecard, and not req uiring
daily recording of ti me worked in ink, RPSC-NZ cannot ensure that the tim e recorded on
the timesheet is representative of what the employee actually worked, that any leave taken,
holidays worked, or tim e changes, are reco rded accurately and com pletely and all tim e is
submitted by the em ployee. RPSC-NZ has several ins tances where em ployees are o n 24
hour call or are required to wo rk nights and weekends in a ddition to regular daily work
hours. The hours associated w ith these situations m ay be charged incorrectly if not
recorded by the employee, on a current basis, and in ink.

6. Changes to Ti mesheets Not Properly Docum ented RPSC does not have an adequate
system in place to do cument and approve chang es made to origin al entries placed o n the
timecards. Various Departments use either hard copy or electronic timesheets. Employees
do not routinely initial their changes on the ha rdcopy timesheets and no process is in place
to track and approve changes made to electronic timesheets.


                                    Recommendations

The DCAA audit reports recomm end that improvements to RPSC-NZ’s accounting and
labor system internal c ontrols be implem ented. Accordingly, we recommend that NSF’s
Director of the Div ision of Acquis ition a nd C ooperative Support wo rk with RPSC to
address all of the recommendations in the DCAA report and ensure that RPSC:

1. Establishes adequate p olicies and procedur es, includ ing an in ternal com pliance
program and an e mployee training program , to identify and record expressly unallowable
costs to an unallowable account consistent with Federal and NSF requirements.

2. Establishes adequate p olicies and procedur es, includ ing an in ternal com pliance
program and an em ployee training program , to have the RPSC headquarters office record
the New Zealand labor and fringe costs as such in its acco unting sys tem rather than as
miscellaneous other direct costs.

3. Designates a separate employee such as a Hu man Resources staff person to enter the
initial employee information and wage/salary rate into the accounting system. In addition,
persons entering labor tim    esheets in the    payroll system and requesting payroll
disbursements should not have access to the po rtion of the payroll system where employee
wage rates and benefit inform ation are m aintained to en sure th at im proprieties will not




                                             4
occur. Finally, responsible em    ployees sh ould receiv e trai ning on the RPSC-NZ
accounting system to record overtime and holidays worked.

4. Implements a timekeeping policy that;

     a. requires em ployees to sign their tim ecards after all entries have bee n m ade but
     prior to r eceiving supe rvisory appr oval to ens ure that th e tim e recorded on a time
     sheet by the employee is correct.

     b. requires m anagement to review employee timecards for proper time charges prior
     to subm ission to accounting f or paym ent. Addition ally, m anagement’s tim e cards
     must also be approved and signed, preferably by another m ember of managem ent.
     Approval of the timecard indicates that the employee charged his/her time as directed,
     all ov ertime or odd shif ts are accou nted for an d any leave or ho liday tim e is also
     accurately recorded.

     c. requires employees to maintain possession of their timesheets, enter their time on a
     daily basis, complete their tim esheets and changes in ink and docum ent the reasons
     for the cha nges. Follo wing these procedur es will ensu re that an em ployee’s tim e
     recorded on the tim esheet and any cha nges are accu rate an d properly docum ented.
     The timecards should be completed in such a way as to be able to distinguish between
     original entries and corrections to previously recorded time. Tracking and approving
     changes provides assurance that the entries being changed or corrected originate from
     the employee that actually charged the tim e and represent the time that the em ployee
     actually performed work on the contract.

In its respo nse to th e d raft of the DCAA re port, RPSC agreed to update its policies and
procedures and/or will create po licies and pro cedures to resolve the issues iden tified.
However, any action plan as agreed to by RPSC needs to be substantiated in a follow-up
review to be determ ined by NSF. RPSC doe s not agree that there are problem s with the
segregation of the payroll ac countant’s duties since the New Zealand Operations m anager
reviews all of the pay roll acc ountant’s entries. Also, RPSC believ es all ac counting
personnel are adequately trained. However, the RPSC-NZ accountant during the audit
expressed to DCAA a need for m ore training to take full ad vantage of all the accou nting
system’s capabilities.

We consider the issues in the both DCAA aud it reports to be significant. Accordingly, to
help ensure the f indings are reso lved within six m onths of issuance of the audit report,
please coordinate with our office during the a udit resolution period to develop a m utually
agreeable resolution of the a udit recommendations. The findings shou ld not be closed
until NSF determ ines that a ll rec ommendations have be en adequa tely addre ssed and
proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this m emorandum to the Director of the Office of Polar
Programs, the Director of Budget, Finance and Award Managem ent, and the Director of
the Division of Institution and Award Support. The responsibility for audit resolution rests



                                             5
with DACS. Accordingly, we ask that no ac tion be taken concerning the report’s findings
without first consulting DACS at (703) 292-8242.

                                    OIG Oversight of Audit

To fulfill our responsi bilities under Government Auditing Standards, th e Office of Inspector
General:

      •   Reviewed DCAA’s approach and planning of the audit;

      •   Monitored the progress of the audit at key points;

      •   Coordinated peri odic meetings wi th DCAA and OIG ma nagement t o discus s audit
          progress, findings, and recommendations;

      •   Reviewed t he audit re port, pre pared by DCAA to ensure       compliance with
          Government Auditi ng St andards and Offi ce of Mana gement and Budget Circ ulars;
          and

      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on RPSC, dated June 15 th and April
7th, 2006 and the conclusions expressed in the reports. The NSF OIG does not express any
opinion on the conclusions presented in DCAA’s audit reports.

We also wa nt to bring to your attention that DCAA has briefly discussed the results of
several other audits perform ed at Rayt heon Technical Services Com pany, RPSC’s
corporate headquarters, reporting the “Contract or Organization and System s” sections of
each attached DCAA report. Many of the repo rts have inform ation that m ay be useful to
NSF in administering its USAP cont ract with RPSC. If NSF desires a com plete copy of
any of the referenced DCAA reports, please contact Kenneth Stagner on (303) 312-7655.

We thank you and your staff for the assistance that was extended to us during the audit. If
you have any questions about the attached report, please contact Kenneth Stagner or Jannifer
Jenkins at (703) 292-4996.



Attachments - “Raytheon Polar Services –New Zealand Accounting System Review”
dated June 15, 2006 and “Report on Audit of Raytheon Polar Services-New Zealand Labor
Floor Check” dated April 7, 2006

cc:       Karl Erb, Director, OPP
          Thomas Cooley, Director, BFA
          Mary Santonastasso, DIAS



                                                 6
             DEFENSE CONTRACT AUDIT AGENCY
             AUDIT REPORT NO. 6161–2006P17740001

    June                                                        15, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
4201               Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170-4810
Telephone                        No.
FAX                        No.
E-m                       ail Address

SUBJECT:          Raytheon Polar Services - New Zealand Accounting System Review

CONTRACTOR:       Raytheon Polar Services New Zealand
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 30
                                                                                   Page
CONTENTS:          Subject of Audit                                                  1
Executive                     Summary                                                1
                   Scope of Audit                                                    1
                   Results of Audit                                                  3
Contractor                    Organization and Systems                              13
                   DCAA Personnel and Report Authorization                          29
                   Audit Report Distribution and Restrictions                       30
Appendix                                                                            31
Audit Report No. 6161-2006P177400001

                                    SUBJECT OF AUDIT

        As you requested on September 16, 2005, we examined Raytheon Polar Services New
Zealand’s (RPSC-NZ) accounting system as of November 10, 2005, to determine whether the
accounting system and related internal controls are adequate for accumulating, segregating, and
reporting costs under Government contracts.

       RPSC-NZ is responsible for establishing and maintaining an adequate accounting
system for accumulating costs under Government contracts. Our responsibility is to express an
opinion on the adequacy of the accounting system based on our examination.


                                  EXECUTIVE SUMMARY

        We determined that the contractor’s accounting practices require corrective action to
improve the reliability of the accounting, payroll, and procurement systems. Our examination
disclosed four (4) significant deficiencies in RPSC-New Zealand’s accounting system that could
result in misstated costs to the National Science Foundation.

SIGNIFICANT ISSUES

          The contractor books New Zealand labor and associated fringes as ODC costs.
          Certain employee timecards are not being approved in a consistent manner prior to
           being submitted to the accountant for processing in the payroll system.
          Improper segregation of duties for the accountant position.
          Improper segregation of expressly and other unallowable costs.


                                     SCOPE OF AUDIT

        We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to
obtain reasonable assurance about whether the data and records examined are free from
material misstatement. The examination includes:
Audit Report No. 6161-2006P177400001

       • obtaining an understanding of internal control for accumulating costs under
        Governm ent contracts;
       • examining, on a test basis, evidence supporting the amounts and disclosures in the
        data   and records evaluated;
       • assessing the accounting principles used and significant estimates made by the
        c ontractor; and
       • evaluating the overall data and records presentation to include supporting
           documentation for the New Zealand Imprest Fund (Petty Cash).

      The examination was limited to the accounting, payroll and procurement systems
implemented in Christchurch New Zealand.

       We evaluated the accounting system using the applicable requirements contained in:

       •   Federal Acquisition Regulation (FAR), and
       •   Cost Accounting Standards (CAS).

       Our review included an evaluation to determine if the accounting system provides for the
following procedures:

       • direct and indirect costs are appropriately identified, accumulated, and reported;
       • unallowable costs are appropriately identified and segregated;
       • indirect costs are allocated equitably and consistently to contracts and other cost
        objectives ;
       • direct and indirect labor costs are identified to intermediate or final cost objectives by
           the timekeeping system and charged to appropriate cost objectives by the labor
        distribution system; and
       • subcontractor and vendor costs are paid in accordance with subcontract and invoice
           terms and conditions and ordinarily paid prior to the contractor’s next payment
           request to the Government.

       Our examination was performed from October 30, 2005 to November 10, 2005.

       We believe that our examination provides a reasonable basis for our opinion.

        Our examination did not include tests to determine whether internal controls are in
operation or operating effectively. Because of inherent limitations in any internal control,
misstatements due to error or fraud may occur and not be detected. Also, accounting system
internal control is subject to the risk that the internal control may become inadequate because of
changes in conditions.
                                                     2
Audit Report No. 6161-2006P177400001

                                     RESULTS OF AUDIT

        In our opinion, the accounting system and related internal control policies and procedures
of RPSC-NZ are inadequate in part. We believe certain contractor practices required corrective
action to improve the reliability of the contractor’s accounting system and related internal
controls. The conditions are detailed in the “Statement of Conditions and Recommendations”
section of this report.

        Upon a request from the NSF IG, we will perform a follow-up evaluation of the
contractor’s accounting system to determine the status of the cited deficiencies, the status of the
contractor’s corrective actions, and the impact of the corrective actions on the overall adequacy
of the contractor’s accounting system internal controls.

       We discussed the findings of these procedures with the contractor’s representatives,
                                                                        , on November 10, 2005.
We provided a draft copy of the Statement of Conditions and Recommendations to the RTSC
representatives on April 11, 2006. The complete text of the contractor’s response dated
May 31, 2006 appears as an appendix to this report.




                                                 3
Audit Report No. 6161-2006P177400001

             STATEMENT OF CONDITIONS AND RECOMMENDATIONS

STATEMENT NO. 1 – ACCUMULATION OF COSTS UNDER GENERAL LEDGER
CONTROL

CONDITION:




                                                          . This does not impact the Christchurch
accounting system directly as Christchurch personnel record the costs correctly before
submitting to the Denver office for final booking to the SAP control accounts. While there is no
finding directly associated with the New Zealand operations, the costs are not being recorded in
the control accounts for which they were originally incurred.

RECOMMENDATION:



                           .

CONTRACTOR’S REACTION:




                                                                 .

AUDITOR’S RESPONSE:

        While the contractor recognizes the condition, no corrective action plan has been
identified by RPSC. Follow up on the determination of the impending corrective action and
further implementation by the contractor to resolve the misclassification of labor and fringe from
the New Zealand location is recommended. DCAA will perform this follow up based on a
request from the National Science Foundation, Office of Inspector General.

                                                4
Audit Report No. 6161-2006P177400001

STATEMENT NO. 2 – APPROVAL OF EMPLOYEE TIMECARDS

CONDITION:

         Employee timecards are not being approved in a consistent manner prior to being
submitted to the accountant for processing in the payroll system. All timecards should be
certified and signed by the employee, approved by the supervisor, and approved by management
as the timesheet requires. There is no policy or procedure in place which holds supervisors and
management accountable for the review and approval of timecards. We reviewed 39 timecards
(100% review) for the fortnight ending November 4, 2005. That review disclosed that of the 39
timecards reviewed, 5% were not signed by the employee, 38% were not approved by a
supervisor, and 87% were not approved by management. The certification and approval of time
cards is essential to ensure that employees’ time is recorded accurately to reflect the time
actually worked, and any leave or holidays as they are incurred. In addition, the signatures of
employees, supervisors, and managers ensure that the time charges being entered into the
accounting system are for current employees working on the Polar Services contract.

RECOMMENDATION:

        We recommend that RPSC incorporate into a timekeeping policy or procedure the
specific requirement for approval signatures on all timecards before they are processed by the
accounting department. The policy should hold responsible management, supervisors and
employees for the appropriate signatures as well as providing written direction to payroll
personnel (accountant) on the steps required when required approvals have not been obtained.

CONTRACTOR’S REACTION:




                                                                                       .

AUDITOR’S RESPONSE:

        The New Zealand policy titled Manual Time Sheet completion was reviewed as part of
the floor check audit. In that policy, the contractor defines the responsibilities of the Manager
NZ Operations and the supervisors which include the review of and approval of employee
timesheets prior to submittal to the accountant for processing. The contractor’s policy
                                                  5
Audit Report No. 6161-2006P177400001

adequately addresses our recommendations. We will perform a follow-up review once the
contractor has had sufficient time to fully implement and monitor adequate controls to correct the
deficiencies and comply with our recommendations.




                                                6
Audit Report No. 6161-2006P177400001

STATEMENT NO. 3 – SEGREGATION OF DUTIES

CONDITION:

       The accountant at RPS-NZ performs the following functions related to payroll:

           1. Initial entry of employee information to include salary or wage rate into the
              payroll system COMACC visual payroll.

           2. Enter employees’ timesheets to include hours worked and additional employee
              expense reports into the COMACC visual payroll system.

           3. Change or adjust employee salary or wage amount as required to adjust for
              overtime or public holidays worked. The salaried amount would be changed to
              compensate for time and a half on a case by case basis.

           4. Post payroll to the general ledger (G/L).

           5. Request disbursements from the bank for employees’ payroll via electronic
              distribution to individual employees’ bank accounts.

        The accountant should not have sole responsibility or the ability to perform all of these
functions in the payroll system. At a minimum, the employees’ salary or wage rate should be
fixed in the accounting system. The ability to change the rate should lie with someone other than
the person who is processing the payroll. While observing the accountant entering timecards, the
accountant proceeded to change several employees’ salary or wage rates due the public holiday
that was observed during the fortnight. While it is understood that the circumstances
surrounding the entering of time sheets in the accounting system has led to “work around” type
situations to ensure that employees are properly paid for hours worked, particularly in an
overtime or holiday situation, the lack of segregation of duties in this area also leads to the
potential for improper changes to employees’ salary or wage rates, development of ghost
employees, and other potential improper activity.

RECOMMENDATION:

        We recommend that RPSC-NZ designate another employee such as Human Resources
personnel to enter the initial employee information and wage/salary rate into the accounting
system. In addition, the person entering labor timesheets in the payroll system and requesting
payroll disbursements should not have access to the portion of the payroll system where
                                                 7
Audit Report No. 6161-2006P177400001

employee specific rates and benefit information are maintained to ensure that improprieties will
not occur. In addition, in depth training on the COMACC system would provide a better
understanding of the potential that the system has to offer related to recording overtime or public
holidays worked so as to enhance the controls.

CONTRACTOR’S REACTION:

        While the Accountant in Christchurch does perform a number of duties which in larger
organizations would normally be segregated we believe there are sufficient checks and balances
in place to ensure that the risk of incorrect payment to employees or the development of ghost
employees and other improper activity is minimal.

        While the accountant is responsible for entering the master data into the payroll system this
master data is checked by the Manager, NZ Ops or his designee to ensure that the information has
been entered correctly. Changes are only made to this master file if the employees salary increases
as the result of the performance evaluation process or they are promoted or they change their hours
of work from full time to part time or other details such as tax code and address are changed.
These changes once made are checked by the Manager, NZ Ops or his designee.

        There are instances where the amount paid to an employee is changed and this is as a
result of the following:

       1. Employees begin work during a pay period and are therefore only entitled to a partial
          payment of their salary. This does require the accountant to change the salary amount
          payable but this change is done in the payroll record and not in the employees Master
          file record.

       2. Overtime or time and a half become due. Time and a half and overtime are entered as
          an hourly amount and the system calculates the amount due based on the hours
          entered. This amount is then added by the system to the employee’s normal
          fortnightly salary.

        A payroll audit report is produced each payroll which outlines any changes made to an
employees master file record including salary and banking details and also highlights any
significant variances between gross and net pay, this report is reviewed by the Manager NZ Ops,
or his designee when authorizing the payroll for payment.

     While the accountant requests the disbursement from the bank for the payroll they are
unable to authorize this payment and are also unable to make any changes to the file which is
                                                8
Audit Report No. 6161-2006P177400001

automatically generated and downloaded into the banking software. In order to release the Direct
Credit file two (2) account signatories must authorize it using there own login and password, one
of these authorities must always be the Manager, NZ Ops or his designee. The accountant is not a
signatory on the bank account and therefore does not have access to authorize files for payment.

      The accountant has received in depth training on the payroll system and is using all of the
functions within the system for the processing of the payroll. Therefore we do not agree that
further training is required.

AUDITOR’S RESPONSE:

        DCAA does not find the explanation provided by the contractor regarding the conditions
related to segregation of duties sufficient.

        The accountant was observed changing salaries of exempt and nonexempt employees for
the purpose of payment of a holiday worked. This required the accountant to change either the
salary or hourly rate whichever was applicable to make up for the amount that would have been
due to the employee during that fortnightly period worked which included the holiday. In the
case of the salaried employees, the calculation observed was to annualized salary, determine the
hourly rate applicable and then re-annualize the salary based on the fortnight that included the
holiday. For hourly employees, a revised hourly rate would be determined based on the pay the
employee was due divided by the number of hours worked. DCAA was informed during its
fieldwork that New Zealand Law requires an employer to pay all employees regardless of salary
or hourly pay schedules for hours worked on holidays plus holiday pay and the promise of paid
time off in the future for the holiday worked. This would require the adjustment of not only
hourly employees but also salaried employees if they worked a holiday.

        The contractor’s policy FIN-DR-004; Christchurch Payroll Administration dated
11/15/2002 states that “It is also helpful to print the payroll audit report” when referring to the
printing of the pay sheet report. The contractor has not provided any policies or procedures
which demonstrate the requirement for either the Accountant or the Manager of New Zealand
Operations to review the payroll audit report as part of the payroll process. The requirement for
the manager to review the payroll audit file should be specific as to what is being reviewed and
approved. In addition, the policy states that the accountant is to create the payroll batch for
direct crediting. Once the batch is created it “must be authorized by two of the above mentioned
signatories”. The policy does not state who the two signatories are and it is not referenced
previously within the context of the policy. Until these controls are in place as part of the payroll
processing system, the “checks and balances” referred to in the contractor’s reaction can not be
considered factors that minimize risk to the government.
                                                    9
Audit Report No. 6161-2006P177400001

        At the time of the review the accountant was demonstrating the process by which the
payroll is processed to include entering of timesheets through posting of the payroll and batching
of the payroll to the banking system. During that process, questions were asked by the auditor to
determine how the system works and what internal controls were in place. There were several
examples of situations where the accountant was not comfortable with the responses and stated
that additional training in various areas of the payroll system may help in identifying additional
controls that were available but not being used. In addition, the accountant stated that she was
uncomfortable making some of the payroll changes that were required in order to work around the
system. It is based on this demonstration of the payroll system that a recommendation regarding
training in the use of and capabilities of the payroll system was made.




                                               10
Audit Report No. 6161-2006P177400001

STATEMENT NO. 4 – SEGREGATION OF UNALLOWABLE COSTS

CONDITION:

        Costs which are considered expressly unallowable based on FAR 31.205 such as gifts;
entertainment; alcohol; and so forth are being charged directly to the contract and not being charged
to the unallowable WBS. According to the contractor, these items are for resale in on-ice facilities
such as the store or bar, and are being handed out as bingo prizes. The contractor also stated that
the revenue associated with these activities is credited back to the contract on each of its quarterly
expenditure reports. The purpose for booking the costs to the contract was to ensure that the
contractor receive fee on these items since they were required to obtain and furnish items of this
nature as in the nature of the support requirement. FAR 31.205 expressly unallowable costs are
required to be segregated from otherwise billable contract costs and can not be made allowable by
any other FAR clause or contract requirement. All of these costs should be accumulated in an
unallowable or otherwise non-billable WBS. The contract requires the contractor to provide the
opportunity for persons working the Antarctic program (both RTSC and Non-RTSC) to participate
in morale, welfare, and recreation facilities such as bingo type activities, social establishments, and
so forth. The function of providing the opportunity for these types of activity are allowable based
on the inherent nature of the contract; however, the prizes, alcohol, items for resale in the gift shops
and other type facilities is not considered allowable. The booking of these types of costs direct to a
billable portion of the contract allows for two (2) conditions where the government is at risk:

       a. fee is being applied to expressly unallowable items, and
       b. the government is assuming any loss associated with mismanagement of the facilities.
          The offset of unallowable costs with generated revenue does not make the costs
          otherwise allowable, and therefore they should be segregated from billable costs.

RECOMMENDATION:

       We recommend that the contractor book the costs of all goods related to morale, welfare,
and recreation type on-ice activities to an unallowable WBS and offset the costs for these items
with revenue from the same accordingly.

CONTRACTOR’S REACTION:

        Polar Services and the National Science Foundation Office of Polar Program are currently
working together to review the matter of how the costs and revenue for morale, welfare, and
recreation type on-ice activities are accounted for. Changes to current practices are being
discussed and decisions should be made by the beginning of GFY 2007.
                                                 11
Audit Report No. 6161-2006P177400001

AUDITOR’S RESPONSE:

        While the contractor recognizes the condition, no corrective action plan has been
identified by RPSC. Follow up on the determination of the impending corrective action and
further implementation by the contractor to resolve the condition is recommended. DCAA will
perform this follow up based on a request from the National Science Foundation, Office of
Inspector General.




                                             12
Audit Report No. 6161-2006P177400001

               CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       RTSC’s headquarters is located in Reston, VA. Effective January 1, 2003,




       RTSC has a multi-disciplined workforce of approximately                  employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                   in FY 2005, of which approximately
               are primarily government prime contracts and subcontracts. Of the government
contracts and subcontracts, approximately                are flexibly priced (i.e. cost type and time
and materials (T&M) type).
                                                 13
Pages 14-28 have been redacted in their entirety.
Audit Report No. 6161-2006P177400001

                                      DCAA PERSONNEL

Primary contacts regarding this audit:                         Telephone No.




Other contact regarding this audit report:

                      , Branch Manager

         Herndon Branch Office                                 FAX No.


                                                               E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.


AUDIT REPORT AUTHORIZED BY:


                                                    /Signed/


                                                    Branch Manager
                                                    DCAA Herndon Branch Office




                                               29
Audit Report No. 6161-2006P177400001

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
 E-m                                                  ail Address
National Science Foundation                       kstagner@nsf.gov
ATTN: Ms. Deborah Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230 USA

Polar Services                                    (Copy furnished thru NSF
Raytheon Technical Services Company Contracting               Officer)
12160 Sunrise Valley Drive
Reston, VA 20191

RESTRICTIONS




                                          30
Audit Report No. 6161-2006P177400001




                                APPENDIX

                                       7 Pages
                             Contractor’s Response

                                         And

                 Final Policy on Manual Timesheet Completion




                                         31
The following 4 pages have been redacted in their entirety.
Raytheon Polar Services (NZ) Limited                          LO-C-688
Manual Time Sheet Completion                                 Revision #0
Christchurch




Manual Time Sheet Completion
                                                                                                            Document Number LO-C-688
                                                                                                                      Revision Number 0
                                                                                                           Approved by
                                                                                                                            Posting Date
                                                                                                           Active Divisions/Departments
                                                                                                                   Christchurch-Finance
Table of Contents

        Table of Contents..................................................................................................... i
        Purpose.............................................................................................................................. 1
        Scope/Applicability ........................................................................................................... 1
        Terms and Definitions ...................................................................................................... 1
        Responsibilities................................................................................................................. 1
        Discussion ......................................................................................................................... 1
        References......................................................................................................................... 2
        Records.............................................................................................................................. 2
        Attachments, Appendices ................................................................................................ 2




Christchurch                                                        i
Contract No. OPP 0000373
The following 2 pages have been redacted in their entirety.
             DEFENSE CONTRACT AUDIT AGENCY

                  REPORT NO. 6161–2006P10310001

                                                             April 7, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms Deborah Cureton
              Associate Inspector General for Audit
4201               Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
Telephone                        No.
FAX                        No.
E-m                       ail Address

SUBJECT:          Raytheon Polar Services - New Zealand Labor Floor Check

CONTRACTOR:       Raytheon Polar Services New Zealand
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 25
                                                                             Page
CONTENTS:          Subject of Evaluation                                      1
Executive                     Summary                                         1
                   Scope of Evaluation                                        1
                   Results of Evaluation                                      2
Contractor                    Organization and Systems                        9
                   DCAA Personnel and Report Authorization                    24
                   Report Distribution and Restrictions                       25
Appendix                                                                      26
Report No. 6161-2006P10310001

                                SUBJECT OF EVALUATION

        As part of our comprehensive audit of Raytheon Polar Services New Zealand Labor Floor
Check, we performed physical observations to determine that employees are actually at work,
that they are performing in their assigned job classifications, and their time is charged to the
appropriate jobs. Our floor checks include determining if the contractor consistently complies
with established timekeeping system policies and procedures for recording labor charges. The
floor checks were conducted during the week of October 31, 2005. In addition, labor interviews
were conducted of 11 personnel of the New Zealand location.


                                  EXECUTIVE SUMMARY

        We determined that certain Raytheon Polar Services New Zealand labor timekeeping
practices require corrective action to improve the reliability of its labor accounting system.

SIGNIFICANT ISSUES:

   •   Certain RPSNZ employees did not complete their time card on a daily basis.
   •   Certain RPSNZ employees did not certify their time sheet with employee signature.
   •   Certain RPSNZ employees made corrections to timesheets without supervisory approval.
   •   Certain RPSNZ timecards did not have supervisory or management approval.


                                  SCOPE OF EVALUATION

       Our evaluation was performed in accordance with generally accepted government
auditing standards, and was limited to conducting floor checks. As part of the floor check
evaluation, we did not perform the customary audit procedures necessary to constitute an
examination of the entire labor system internal controls in accordance with generally accepted
government auditing standards. Internal Controls related to the labor system are being reviewed
and will be reported under Audit Assignment No. 6161-2006P17740001, New Zealand
Accounting System Review.
Report No. 6161-2006P10310001

                                 RESULTS OF EVALUATION

        In our opinion, the labor and timekeeping system and related internal control policies and
procedures of Raytheon Polar Services New Zealand are inadequate. Based on the procedures
we performed, we believe certain contractor labor practices require corrective action to improve
the reliability of the contractor’s labor accounting system. These conditions are detailed in the
“Statement of Conditions and Recommendations” section of this report.

       This report is limited to the cited deficiencies. Accordingly, we express no opinion on
the adequacy of the contractor’s labor accounting system taken as a whole.

        Upon direction from the NSF IG, we will perform a follow-up evaluation of the
contractor’s timekeeping system to determine the status of the cited deficiencies, the status of the
contractor’s corrective actions, and the impact of the corrective actions on the overall adequacy
of the contractor’s labor accounting system internal controls.

       We discussed the findings of these procedures with the contractor’s representatives,
                                                                        on November 10, 2005.
We provided a draft copy of the Statement of Conditions and Recommendations to RTSC
representatives on January 26, 2006. The complete text of the contractor’s response, dated
February 24, 2006, appears as an appendix to this report.




                                                 2
Report No. 6161-2006P10310001

              STATEMENT OF CONDITIONS AND RECOMMENDATIONS

STATEMENT NO. 1: TIMECARD IN EMPLOYEE POSSESSION

CONDITION:

        Employees are not in control of their own timesheets during the course of the pay period
(fortnight). We found instances where employees were printing out timesheet templates for an
entire department at the end of the pay period with the templates default time and attendance.
Employees would then sign the default template that was printed and submit for supervisory
approval. Time cards being printed at the end of a pay period by an employee other than the one
for whom the timecard represents may lead to labor mischarging. The completion of the
timecard by someone other than the employee to which the timecard belongs does not ensure that
the time recorded on the timesheet is representative of what the employee actually worked and
that any leave taken or holidays worked are recorded accurately and completely.

RECOMENDATION:

         RPSC should develop a policy requiring employees to open and save their timecard
template to their personal computers at the beginning of the fortnight to ensure that the time card
is in their possession at all times. The specific fortnight related to the timecard can be noted in
the file name upon saving and employees can enter their time accordingly. At the end of the
fortnight, employees can be sure that the time entered on the timesheet that they are signing is
reflective of entries that they have made. We found this practice in certain departments whose
timecards were tested and we believe should be implemented across the entire New Zealand
operations.

CONTRACTOR’S REACTION:

        A draft policy has been developed for the completion of manual time sheets addressing
each of the recommendation areas listed above. A copy of the draft policy is attached. The
procedure addresses completion of manual time sheets using the current Excel template. This
new procedure will be followed by employees on the Polar program as long as we continue to
use the Excel template to record time.

AUDITOR’S RESPONSE:

        The policy has been reviewed and the contractor has incorporated into the Manual Time
Sheet Completion Policy controls which meet the audit recommendation. The policy is included
in the appendix to this report.


                                                 3
Report No. 6161-2006P10310001

STATEMENT NO. 2: COMPLETION OF TIME CARDS IN INK

CONDITION:

        The employee’s time cards are not completed in ink. The preparation of time cards in ink
encourages the accurate recording of time, creates a method for monitoring changes, and
prevents changes to a timecard by someone other than the employee who is responsible for the
time card. There are no policies, procedures, or practices in place at RPSC-NZ that require the
employees to prepare the timecard in ink. The contractor maintains a template that the
employees can create, edit, and print at any time during the effective pay period. While the time
card is considered to be in “ink” since it is printed at the end of the pay period, it does not meet
the standards assumed by the control activity which prevents unauthorized changes to an
employees’ time card. In addition, 1 of the 3 employees interviewed who manually record time
on a printed time sheet used pencil for recording time.

RECOMENDATION:

         The contractor should develop a policy requiring the employees to print out the template
at the beginning of the pay period and complete their timecard manually and in ink. Completion
of the timecard manually and in ink will ensure the time that an employee records on their time
sheet can not be manipulated once it is recorded.

CONTRACTOR’S REACTION:

        A draft policy has been developed for the completion of manual time sheets addressing
each of the recommendation areas listed above. A copy of the draft policy is attached. The
procedure addresses completion of manual time sheets using the current Excel template. This
new procedure will be followed by employees on the Polar program as long as we continue to
use the Excel template to record time.

AUDITOR’S RESPONSE:

        The policy has been reviewed and the contractor has incorporated into the Manual Time
Sheet Completion Policy controls which meet the audit recommendation. The policy is included
in the appendix to this report.




                                                 4
Report No. 6161-2006P10310001

STATEMENT NO. 3: COMPLETION OF TIME CARDS ON A DAILY BASIS

CONDITION:

        Employees at RPSC-NZ do not complete their timecards on a daily basis. Preparation of
a timecard on a daily basis ensures that the amount of time worked on a job is recorded
accurately and completely so that the government is charged appropriately for the work
performed. RPSC-NZ does not have a policy or procedure in place which requires the employee
to record their time on a daily basis. We found that 18% of the employees judgmentally sampled
did not record their time until the end of the pay period when it was time to submit the time sheet
to accounting. The delay in completing a timesheet encourages over/under charging the regular
time worked on a contract as well as overtime, vacation time, and sick time. In addition, the
contractor has several instances where employees are on 24 hour call or are required to work
nights and weekends in addition to regular daily work hours. The hours associated with these
situations may be charged incorrectly if not recorded on a current basis.

RECOMMENDATION:

        The contractor should require all employees to enter their time on a daily basis. A policy
or procedure should be developed which requires both hourly and salaried employees to record
their time at least daily. Completion of a timesheet on a daily basis will ensure that an
employee’s time recorded on the timesheet is representative of what the employee actually
worked and that any leave taken or holidays worked are recorded accurately and completely.

CONTRACTOR’S REACTION:

        A draft policy has been developed for the completion of manual time sheets addressing
each of the recommendation areas listed above. A copy of the draft policy is attached. The
procedure addresses completion of manual time sheets using the current Excel template. This
new procedure will be followed by employees on the Polar program as long as we continue to
use the Excel template to record time.

AUDITOR’S RESPONSE:

        The policy has been reviewed and the contractor has incorporated into the Manual Time
Sheet Completion Policy controls which meet the audit recommendation. The policy is included
in the appendix to this report.




                                                5
Report No. 6161-2006P10310001

STATEMENT NO. 4: EMPLOYEE SIGNATURES

CONDITION:

       We found that 9% of the employees tested did not sign their timecard before it was
submitted to accounting. By signing their timecard, an employee is attesting that the hours
recorded on their time card and ultimately submitted for payment were true and correct. In
addition, the employee is stating that their timecard has not been altered by anyone except the
employee to which the timecard belongs. This is essential in insuring that supervisors and fellow
employees are not changing or recording the time on another employee’s timecard.

RECOMMENDATION:

        A timekeeping policy should be developed which requires employees to sign their
timecard after all entries have been made but prior to receiving supervisory approval. By
requiring the employee to sign a completed timecard, assurance that the time recorded on a time
sheet by the employee is true, accurate, and correct can be obtained.

CONTRACTOR’S REACTION:

        A draft policy has been developed for the completion of manual time sheets addressing
each of the recommendation areas listed above. A copy of the draft policy is attached. The
procedure addresses completion of manual time sheets using the current Excel template. This
new procedure will be followed by employees on the Polar program as long as we continue to
use the Excel template to record time.

AUDITOR’S RESPONSE:

        The policy has been reviewed and the contractor has incorporated into the Manual Time
Sheet Completion Policy controls which meet the audit recommendation. The policy is included
in the appendix to this report.




                                               6
Report No. 6161-2006P10310001

STATEMENT NO. 5: CHANGES TO ORIGINAL TIMECARD ENTRIES

CONDITION:

        We found that 18% of the employees tested had alterations made to original entries on
their timecard. The alterations were not initialed by employees to indicate that the changes were
made and/or approved by the originating employee. Furthermore, employees complete their time
in an electronic template which, when the corrections are made on the template does not allow
for tracking changes to original timesheet entries. Initialing changes to a timecard by the
originating employee ensures that any and all changes made to original time entries are made by
the employee who incurs the time recorded.

RECOMMENDATION:

        A timekeeping policy should be developed requiring employees to note changes/
alterations to timecards which change any time previously recorded. The employee should also
provide a reason for the change being made. In addition, timecards should be completed in such
a way as to be able to distinguish between original entries and corrections to previously recorded
time. Tracking and approving changes provides assurance that the entries being changed or
corrected originate from the employee that actually charged the time and represent the time that
the employee actually performed work on the contract.

CONTRACTOR’S REACTION:

        A draft policy has been developed for the completion of manual time sheets addressing
each of the recommendation areas listed above. A copy of the draft policy is attached. The
procedure addresses completion of manual time sheets using the current Excel template. This
new procedure will be followed by employees on the Polar program as long as we continue to
use the Excel template to record time.

AUDITOR’S RESPONSE:

        The policy has been reviewed and the contractor has incorporated into the Manual Time
Sheet Completion Policy controls which meet the audit recommendation. The policy is included
in the appendix to this report.




                                                7
Report No. 6161-2006P10310001

STATEMENT NO. 6: TIMECARD APPROVALS

CONDITION:

        We found that 45% of the timecards sampled did not have approval signatures from an
approving authority. Supervisory/management approval is necessary to ensure that employees’
appropriately record all hours worked and any leave taken. RPSC New Zealand employees are
not responsible for recording hours by WBS assignment number. Should that requirement exist
in the future, approvals of timecards would also ensure that the correct assignment numbers are
being charged.

RECOMMENDATION:

       A timekeeping policy should be in place which requires management to review employee
timecards for proper time charging prior to submission to accounting for payment. Additionally,
management’s time cards must also be approved, preferably by another member of management.
The indication that management has reviewed the time sheet should be the manager/supervisor
signature on the time sheet once it is reviewed. Approval of the timecard indicates that the
employee charged his/her time as directed, all overtime or odd shifts are accounted for and any
leave or holiday time is also recorded appropriately.

CONTRACTOR’S REACTION:

        A draft policy has been developed for the completion of manual time sheets addressing
each of the recommendation areas listed above. A copy of the draft policy is attached. The
procedure addresses completion of manual time sheets using the current Excel template. This
new procedure will be followed by employees on the Polar program as long as we continue to
use the Excel template to record time.

AUDITOR’S RESPONSE:

        The policy has been reviewed and the contractor has incorporated into the Manual Time
Sheet Completion Policy controls which meet the audit recommendation. The policy is included
in the appendix to this report.




                                               8
Report No. 6161-2006P10310001

                  CONTRACTOR ORGANIZATION AND SYSTEMS

I.    Organization

      RTSC’s headquarters is located in Reston, VA.




                                            9
Report No. 6161-2006P10310001

       RTSC has a multi-disciplined workforce of approximately                   employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                   in FY 2004, of which over               are
primarily government prime contracts and subcontracts. Of the government contracts and
subcontracts, approximately               are flexibly priced (i.e. cost type and time and materials
(T&M) type).




                                                 10
Pages 11-23 have been redacted in their entirety.
Report No. 6161-2006P10310001

                                     DCAA PERSONNEL

Telephone                                                                No.
Primary contact(s) regarding the evaluation:




Other contact regarding the evaluation:

         Larry Tatem, Branch Manager

                                                               FAX No.


                                                               E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.


REPORT AUTHORIZED BY:


                                                    /Signed/


                                                    Branch Manager
                                                    DCAA Herndon Branch Office




                                               24
Report No. 6161-2006P10310001

                   REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
 E-m                                                 ail Address
National Science Foundation                      Kstagner@nsf.gov
ATTN: Ms. Deborah Cureton, Associate Inspector
General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Polar Services                                   (Copy furnished thru NSF Contracting Officer)
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191




                                          25
Report No. 6161-2006P10310001



                                APPENDIX

                                 7 Pages

                  Contractor’s Response and Supporting Policy




                                      26
The following 2 pages have been redacted in their entirety.
Manual Time Sheet Completion
                                                  Document Number
                                                    Revision Number
                                                        Approved by
                                                        Posting Date
                                       Active Divisions/Departments
                                                           (List here)




Raytheon Polar Services (NZ) Limited
Christchurch
Contract No. OPP 0000373
Raytheon Polar Services (NZ) Limited Document Number
Manual Time Sheet Completion         Revision #
Christchurch
                                     Table of Contents

      Table of Contents.................................................................................................... 30
      Purpose ............................................................................................................................. 31
      Scope/Applicability ............................................................................................................ 31
      Terms and Definitions ....................................................................................................... 31
      Responsibilities ................................................................................................................. 31
      Discussion......................................................................................................................... 32
      References........................................................................................................................ 33
      Records............................................................................................................................. 33
      Attachments, Appendices ................................................................................................. 33




Christchurch
Contract No. OPP 0000373

                                                                       30
The following 3 pages have been redacted in their entirety.
